                                                                 Issue Date
                                                                       November 30, 2007
                                                                 Audit Report Number
                                                                          2008-LA-1002




TO:         Stephen Schneller, Director, Office of Public and Indian Housing, Region IX,
               9APH



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The Housing Authority of the City of Napa Did Not Adequately Determine and
           Support Section 8 Rents

                                    HIGHLIGHTS

 What We Audited and Why

      In response to a hotline complaint, we audited requested areas of the Housing Authority
      of the City of Napa’s (the Authority) Section 8 program. The purpose was to determine
      whether concerns raised in the complaint relating to misappropriation of Section 8 funds
      had merit and whether allegations of improper rent increases for the Section 8 Moderate
      Rehabilitation Single Room Occupancy (Mod Rehab) and Section 8 Housing Choice
      Voucher programs were valid.

 What We Found

      The allegation relating to the misappropriation of Section 8 funds had no merit.
      Although the Authority used operating reserve funds for other housing purposes without
      prior approval from the board, we verified that the funds used were excess administrative
      fees. Therefore, the Authority did not misuse Section 8 funds.

      The Authority improperly increased contract rents for eight units at a Section 8 Mod
      Rehab project. The Authority was required to use the annual adjustment factor for rent
      adjustments; however, since 2004, contract rents had been more than the maximum rent
      allowed based on U.S. Department of Housing and Urban Development (HUD)-
      prescribed rates. This condition resulted in the Authority’s paying $63,466 in excess
      housing assistance payments to the owner.
     The Authority did not properly determine reasonable rents for the Section 8 Housing
     Choice Voucher program units. HUD requires housing authorities to ensure that rents
     charged by owners are reasonable. However, the Authority’s rent reasonableness
     determination process was unreliable. The Authority’s database for the unassisted units,
     from which comparable units were selected, was inadequate. It contained incomplete,
     outdated, and unverified data. Therefore, the Authority approved unsupported rents. As
     a result, it potentially overpaid housing assistance to the owners.

What We Recommend

     We recommend that the Director of HUD’s Office of Public and Indian Housing require
     the Authority to

        •   Reimburse the excessive housing assistance payments related to the Section 8
            Mod Rehab units.
        •   Develop and implement written policies, procedures, and controls for
            administering its Section 8 Mod Rehab program in compliance with HUD
            regulations.
        •   Establish procedures and implement controls to ensure that its rent reasonableness
            determination process is in accordance with HUD rules and regulations.
        •   Establish procedures and implement controls to ensure the comparable database is
            up-to-date, complete and verified.
        •   Conduct training for all individuals involved in the rent reasonableness
            determinations.

     We also recommend that the Director of HUD’s Office of Public and Indian Housing
     coordinate with the Office of Inspector General for Audit to conduct a postaudit
     verification review to determine whether corrective actions were implemented.

     For each recommendation without a management decision, please respond and provide
     status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
     copies of any correspondence or directives issued because of the audit.

Auditee’s Response

     We provided the draft report to the Authority on November 5, 2007, and held an exit
     conference on November 7, 2007. The Authority provided written comments on
     November 20, 2007. The Authority generally agreed with our report.

     The complete text of the auditee’s response, along with our evaluation of the response,
     can be found in appendix B of this report.




                                             2
                             TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
   Finding 1: The Authority Improperly Increased Rents for a Section 8 Mod Rehab   5
              Project
   Finding 2: The Authority Did Not Properly Perform Rent Reasonableness           7
              Determinations for the Section 8 Housing Choice Voucher Program

Scope and Methodology                                                              16

Internal Controls                                                                  17

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use             18
   B.   Auditee Comments and OIG’s Evaluation                                      19
   C.   Schedule of Excessive Contract Rents                                       23
   D.   Federal Requirements                                                       24




                                              3
                     BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Napa (the Authority) was established on May 8, 1942. On
July 7, 1969, the City Council of the City of Napa declared itself to be the Authority’s board of
commissioners. The primary purpose of the Authority is to assist low-income families in
obtaining decent, safe, and sanitary housing.

The Authority administers the Section 8 Housing Choice Voucher program, the Section 8
Moderate Rehabilitation Single Room Occupancy (Mod Rehab) program, and the Affordable
Housing program. The Authority operates the Section 8 programs under the U.S. Department of
Housing and Urban Development (HUD). During the three-year audit period, from July 2004
through June 2007, the Authority received housing assistance payments in the amounts of $26.48
million for the Housing Choice Voucher program and $181,740 for the Mod Rehab program.

Our audit objectives were to determine whether concerns raised in the complaint relating to
misappropriation of Section 8 funds had merit and whether allegations of improper rent increases
for the Section 8 Mod Rehab and Housing Choice Voucher programs were valid.




                                                4
                                RESULTS OF AUDIT

Finding 1: The Authority Improperly Increased Rents for a Section 8
Mod Rehab Project
The Authority improperly increased rents for a Section 8 Mod Rehab project. The problem
occurred because it did not establish written policies and procedures for the Section 8 Mod
Rehab program. As a result, it overpaid a Section 8 Mod Rehab project owner $63,466 in
housing assistance.


 Contract Rents Were Excessive


       The Authority has been administering the eight-unit Section 8 Mod Rehab project since
       1995. The current owner purchased the project in September 2004. Although the owner
       paid off the rehabilitation loans as part of the purchase, he assumed the affordability
       requirements as stated in the regulatory agreements.

       In October 2004, the new owner requested a raise in the contract rents to $809 for six
       units rehabilitated using Community Development Block Grant (CDBG) funds and $677
       for the remaining two units rehabilitated by Home Investment Partnership Program
       (HOME) funds. The Authority approved the requested rent increase although the correct
       2004 contract rent for all units should have only been $557.

       Contract rents for this Section 8 Mod Rehab project cannot exceed the amount
       established by multiplying the annual adjustment factor by the base rents for the 10-year
       housing assistance payments contract term. Subsequent rent adjustments can be no more
       than the operating cost adjustment factor applied to the existing contract rent minus the
       debt service upon renewal of the contract and yearly thereafter. These adjustment rates
       are published by HUD annually in the Federal Register.

       The Authority approved several more rent increases during our audit period. The
       approved contract rent exceeded the maximum amount allowed according to HUD
       requirements. As a result, it paid the project owner $63,466 in excessive housing
       assistance (see appendix C).

 The Authority Had No Written
 Policies and Procedures

       The Authority approved rent increases without following the HUD-prescribed rates for
       adjusting rents causing excessive housing assistance payments. It made these excessive
       payments because it did not have written policies and procedures based on HUD



                                               5
    requirements for the Section 8 Mod Rehab program that addressed contract rent
    adjustments. As the owner submitted requests for rent increases, the Authority approved
    the requested amounts without question despite knowing adjustments are controlled by
    regulations.

Recommendations


    We recommend that the Director, Office of Public and Indian Housing, Region IX,
    require the Authority to

    1A. Reimburse HUD $63,466, using nonfederal funds, for the excessive housing
        assistance paid to the Section 8 Mod Rehab project owner.

    1B. Develop written policies and procedures for administering its Section 8 Mod Rehab
        program in compliance with HUD regulations and implement controls to ensure
        policies and procedures are followed.




                                           6
Finding 2: The Authority Did Not Properly Perform Rent
Reasonableness Determinations for the Section 8 Housing Choice
Voucher Program
The Authority did not properly perform rent reasonableness determinations for program unit
contract rents. Rent reasonableness determinations were not performed on six rent increases
sampled. Additionally, its rent reasonableness determination process was unreliable and the
unassisted unit database was inadequate. These conditions occurred because the Authority did
not follow HUD requirements or its own administrative plan for performing rent reasonableness
determinations. As a result, it could not ensure that housing assistance payments were based on
reasonable contract rents.


 Rent Reasonableness
 Determinations Were Not
 Performed for Rent Increases

       The Authority did not perform rent reasonableness determinations for the six sample files
       we reviewed that had a rent increase. The Authority approved the new rents as requested
       by the owners. However, the tenant files did not document the basis for determining that
       the requested rent increases were reasonable. Therefore, these rent increases that resulted
       in higher housing assistance payments were not supported.

 The Rent Determination
 Process Was Unreliable

       Although the Authority did not determine whether the rent increases were reasonable for
       the six tenant files in our sample, we observed that rent reasonableness determinations
       were performed for other contract rents. The rent determination process when performed
       was unreliable. As part of the process, the Authority used the rent reasonableness
       function in the Housing Assistance Payments Program Yearly (HAPPY) system, its
       Section 8 system, to assist staff in choosing unassisted comparable units that were similar
       to the program unit. While the function was capable of automatically generating three
       comparable units from a database of unassisted units, the HAPPY system gave Authority
       staff an option to choose other comparable units when they believed the system-generated
       comparables were inadequate. In practice, however, comparable unassisted units used in
       the rent determinations were not always similar to the program unit.

       We identified the following problems with the process. They Authority approved
       contract rents by comparing the program unit to unassisted units that were dissimilar,
       determined the program unit’s rent based on insufficient number of comparables, and did
       not make adjustments between the program unit and unassisted units to justify the
       contract rent.


                                                7
In one instance, Authority staff improperly determined the program unit’s rent was
reasonable by comparing to unassisted units with different number of bedrooms. The
program unit had one bedroom, while comparable 2 and 3 had two bedrooms. HUD rules
require the Authority to determine the program unit’s rent is reasonable by comparing
against rent for other comparable unassisted units. Units with different number of
bedrooms are not comparable in size.




                                      8
In another instance, the Authority staff inappropriately determined the program unit’s
rent based on only one comparable unassisted unit.




                                        9
In this instance, the program unit had a garage or covered parking, laundry facilities, and
on-site maintenance. However, the comparables selected did not have these amenities.
The approved contract rent for this unit was $795. As shown below and on the next page,
the comparison did not show favorable adjustments were made to the program unit for
these amenities.

                              Data on Program Unit




                                        10
                                  Data on Unassisted Units




The Unassisted Unit Database
Was Inadequate

     While reviewing the data in the system, we noted the unassisted unit database contained
     outdated, incomplete, and unverified information.

     At the time of our audit, more than 60 percent of the records were at least three years old.
     The Authority did not purge or update the unassisted unit information regularly.
     Therefore, we found, as shown below, outdated unassisted unit information from 2001
     and 2003 was used to support contract rents on March 15, 2007.




                                              11
Additionally, the information entered into the database was incomplete. The program
units were not adequately described to allow the HAPPY system to generate similar
unassisted units for the comparison. The database did not include factors that could be
used to gauge the similarity or dissimilarity between the program unit and comparables.
Below, square footage for the units was shown as average; however, there was no basis
for what constituted average square footage.




                                       12
The information entered into the database was unverified. The Authority populated the
unassisted unit database using housing surveys completed by applicants. When
applicants applied to the Section 8 program, the Authority requested that data be provided
regarding the applicants’ current housing situation. This information was then entered
into the HAPPY system and used as unassisted comparables for current units. The
Authority did not verify the information before entering it into the system. As a result,
Authority staff made rent determinations based on unrealistic comparables, such as a
three-bedroom single-family detached unit renting at $300 per month as shown in
comparable 2 below.




                                        13
The Authority Did Not Fully
Implement Its Administrative
Plan

     The Authority performed rent determinations improperly because it did not fully
     implement its administrative plan and HUD regulations. While the plan included
     policies, it did not establish specific procedures and controls for determining rent
     reasonableness. Management did not ensure rent reasonableness determinations were
     performed when required and that they were done correctly. Management also did not
     ensure that staff was trained in, and complied with, the requirements for determining the
     appropriate rent for program units.

Recommendations


     We recommend that the Director, Office of Public and Indian Housing, Region IX,
     require the Authority to

     2A. Establish procedures and implement controls to ensure that Authority staff follow
         HUD rules and regulations to determine reasonable rents.




                                             14
2B. Establish procedures and implement controls to ensure that the database used to
    obtain comparables is up-to-date and complete and contains verified applicant-
    provided information to determine reasonable rents.

2C. Conduct training on the approved policies and procedures regarding rent
    reasonableness determinations.

2D. Coordinate with the Office of Inspector General for Audit, Region IX, to conduct a
    postaudit verification, within 12 to 18 months of this final audit report issuance, to
    determine whether corrective actions were implemented.




                                        15
                        SCOPE AND METHODOLOGY

We performed on-site work at the Authority’s office, located in Napa, California, from July
through September 2007.

To accomplish our objective, we

   •   Interviewed current and former Authority personnel and HUD staff to obtain relevant
       information to assist with the review.

   •   Reviewed financial records of the Authority.

   •   Reviewed all tenant files related to the Authority’s Section 8 Mod Rehab units within our
       audit period.

   •   Selected and reviewed a nonstatistical sample of six tenant files for the Section 8 Housing
       Choice Voucher program.

   •   Extracted and reviewed rent reasonableness data from the HAPPY system.

Our audit generally covered the period July 1, 2004, through June 30, 2007. This period was
adjusted as necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               16
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

       •   Effectiveness and efficiency of operations,
       •   Reliability of financial reporting, and
       •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

              •   Policies and procedures that management had in place to ensure that rent
                  increases for the Section 8 Mod Rehab units were calculated in accordance
                  with HUD requirements.
              •   Policies and procedures that management had in place to ensure that contract
                  rents for the Section 8 Housing Choice Voucher program units were
                  determined reasonable in compliance with HUD requirements.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization's objectives.

 Significant Weaknesses

       Based on our review, the following items are significant weaknesses:

              •   The Authority did not have policies and procedures in place to determine the
                  appropriate rent increases for Section 8 Mod Rehab units (finding 1).
              •   The Authority did not have controls to ensure the rent reasonableness
                  determinations were performed when required, performed correctly, and
                  supported by accurate data for assisted units in the Section 8 Housing Choice
                  Voucher program (finding 2).



                                               17
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

        Recommendation number                                   Ineligible 1/



                    1A                                            $63,466



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations. The Authority paid excessive contract rents to the owner of the
     Section 8 Mod Rehab project. As a result, these funds were unavailable to provide safe,
     sanitary, and decent housing for low-income families (see appendix C).




                                            18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         19
20
21
                        OIG Evaluation of Auditee Comments

Comment 1   In accordance with the Section 8 Moderate Rehabilitation Program’s Housing
            Assistance Payments Contract, when the Section 8 Mod Rehab project was sold to
            the new owner in September 2004, the previous owner was required to notify the
            Authority of the change in the debt service of the amounts borrowed to finance
            the rehabilitation cost. Since the rehabilitation loans were paid off (not
            refinanced) upon the sale transfer, there should have been no monthly
            rehabilitation debt service added to the contract rent calculation.




                                          22
         Appendix C

                   SCHEDULE OF EXCESSIVE CONTRACT RENTS
Unit #                      #1          #2           #3           #4          #5          #6          #7          #8
           Contract
             rent
 Date     determined                         Excessive rent from July 1, 2004 through June 30, 2007
           by HUD
           formula
Jun-07      $608.73      $290.27     $290.27       $290.27     $290.27     $ 57.27     $145.27     $290.27     $290.27
May-07       608.73       290.27      290.27        290.27      290.27      196.27      145.27      264.27      290.27
Apr-07       608.73       290.27      290.27        290.27      290.27      196.27      145.27      264.27      290.27
Mar-07       608.73       290.27      290.27        290.27      290.27       57.27      145.27      264.27      290.27
Feb-07       608.73       290.27      290.27        264.22      290.27       57.27      145.27      264.27      290.27
Jan-07       608.73       290.27      290.27        264.22      290.27       57.27      145.27      264.27      290.27
Dec-06       608.73       264.22      264.22        264.22      264.22      196.27      196.27      264.27      264.27
Nov-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Oct-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Sep-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Aug-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Jul-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Jun-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
May-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Apr-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Mar-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Feb-06       590.53       282.43      282.43        282.43      282.43      214.48      214.48      282.48      282.48
Jan-06       590.53       282.43      282.43        259.48      282.43      193.48      214.48      282.48      282.48
Dec-05       590.53       259.48      259.48        259.48      259.48      193.48      193.48      259.48      259.48
Nov-05       574.82       275.18      275.18        398.18      275.18      209.18      209.18      275.18      275.18
Oct-05       574.82       275.18      275.18        353.18      275.18      287.18      209.18      275.18      275.18
Sep-05       574.82       275.18      275.18        353.18      275.18     287.18       209.18      275.18      275.18
Aug-05       574.82       275.18      275.18        353.18      275.18      287.18      209.18      275.18      275.18
Jul-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Jun-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
May-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Apr-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Mar-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Feb-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Jan-05       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Dec-04       574.82       234.18      234.18        234.18      234.18      102.18      102.18      234.18      234.18
Nov-04       557.28       251.72      251.72        251.72      251.72      119.72      119.72      251.72      251.72
Oct-04       557.28       251.72      251.72        251.72      251.72      119.72      119.72      251.72      251.72
Sep-04       635.28       -35.28        0.00        -35.28        0.00      -42.28      -35.28      -35.28      -35.28
Aug-04       635.28       -35.28      -35.28        -35.28      -42.28      -42.28      -35.28      -35.28      -35.28
Jul-04       635.28         0.00      -35.28        -35.28      -42.28      -42.28      -35.28      -35.28      -35.28

Total by unit            $8,778.98   $8,778.98    $9,025.65    $8,764.98   $5,350.30   $5,408.30   $8,614.30   $8,744.30
Grand total $63,465.81



                                                          23
Appendix D

                          FEDERAL REQUIREMENTS
Regulations at 24 CFR [Code of Federal Regulations] 882.408(a) state: “The Fair Market Rent
Schedule for Moderate Rehabilitation is 120 percent of the Existing Housing Fair Market Rent
Schedule, except that the Fair Market Rent limitation applicable to single room occupancy
housing is 75 percent of the Moderate Rehabilitation Fair Market Rent for a 0-bedroom unit.”

Regulations at 24 CFR 882.410(a)(1) state: “The Annual Adjustment Factors which are
published annually by HUD (see Schedule C, 24 CFR part 888) will be utilized. On or after each
annual anniversary date of the Contract, the Contract Rents may be adjusted in accordance with
HUD procedures, effective for the month following the submittal by the Owner of a revised
schedule of Contract Rents. The changes in rent as a result of the adjustment cannot exceed the
amount established by multiplying the Annual Adjustment Factor by the base rents.”

Regulations at 24 CFR 882.805(b)(2) state: “After HUD has approved the HA’s [housing
authority] application, the review and comment requirements of 24 CFR part 791 have been
complied with, and the HA has submitted (and HUD has approved) the items required by
paragraph (b)(1) of this section, HUD and the HA must execute the ACC [annual contributions
contract] in the form prescribed by HUD. The initial term of the ACC must be 11 years. This
term allows one year to rehabilitate the units and place them under a 10-year HAP [housing
assistance payments] contract. The ACC must give HUD the option to renew the ACC for an
additional 10 years.”

Regulations at 24 CFR 402.5 (b)(1) require that upon renewal of the Section 8 Mod Rehab
Single Room Occupancy Housing Assistance Payments contract, existing rents will be adjusted
by an operating cost adjustment factor.

Regulations at 24 CFR 982.507(a)(1) state: “The PHA [public housing agency] may not approve
a lease until the PHA determines that the initial rent to owner is a reasonable rent.”

Regulations at 24 CFR 982.507(a)(2) state: “The housing authority must redetermine reasonable
rent: (i) Before any rent increase in the rent to the owner; (ii) If there is a 5% decrease in the
published FMR [fair market rent]in effect 60 days before the contract anniversary; or (iii) If
directed by HUD.”

Regulations at 24 CFR 982.507(a)(4) state: “At all times during the assisted tenancy, the rent to
owner may not exceed the reasonable rent as most recently determined or redetermined by the
PHA.”

Regulations at 24 CFR 982.507(a)(4)(b) state: “The PHA must determine whether the rent to
owner is a reasonable rent in comparison to rent for other comparable unassisted units. To make
this determination, the PHA must consider: (1) the location, quality, size, unit type, age of the




                                               24
contract unit; and (2) amenities, housing services, maintenance and utilities to be provided by the
owner in accordance with the lease.”

Regulations at 24 CFR 982.507(a)(4)(c) state: “By accepting each monthly housing assistance
payment from the PHA, the owner certifies that the rent to owner is not more than rent charged
by the owner for other units in the premises. The owner must give the PHA information
requested by the PHA on rents charged by the owner for other units in the premises or
elsewhere.”




                                                25
